WAIVER

SUPREME COURT OF THE UNITED STATES

20-7229

 

Wanda Tubbs ett Long
(Petitioner) Vv. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box: Oo
© I am filing this waiver on behalf of all respondents.

© _ only represent some respondents, I am filing this waiver on behalf of the following respondent(s):

 

Please check the appropriate box: ©

Tam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

Olam not presently a member of the Bar of this Court. Should a response be requested, the response
fie driginal signed form to: Supreme Court,

ERTS,

    

 

 

Date:

(Type or print) Name Scott Sutherland

 

 

 

 

 

 

 

 

 

© wr. O Ms. O Mrs. O Miss oO
Firm \Office of the Tennessee Attorney General and Reporter
Address P.O. Box 20207
City & State |Nashville, TN Zip |97202-0207
Phone (615) 532-7688 Email gcott.sutherland@ag.tn.gov

 

 

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Paul Andrew Justice lil
Justice Law Office
1902 Cypress Drive
itreesboro, TN 37130

ce:

 
